U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

February 9, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
1 First Street NE
Washington, D.C. 20543
Re: Woodard v. United States, No. 20-6387
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on November 16,
2020. The government’s response is now due, after two extensions, on February 19, 2021. We
respectfully request, under Rule 30.4 of the Rules of this Court, a further extension of time to and
including February 22, 2021, within which to file a response.
This short extension is necessary because, in light of COVID-19, this Office is endeavoring
to minimize risks to the health and safety of our personnel responsible for the filing and service of
paper copies of Court documents by reducing the number of days each week on which the filing
and service of such documents are necessary and on which those personnel must report to work in
person.
Counsel for petitioner does not oppose this further extension.
Sincerely,

Elizabeth B. Prelogar
Acting Solicitor General
cc:

See Attached Service List

20-6387
WOODARD, DARRIN B.
USA

MICHAEL R. DREEBEN
O'MELVENY & MYERS LLP
1625 EYE STREET, NW
WASHINGTON, DC 20006
202-383-5400
MDREEBEN@OMM.COM
SHIRA KIEVAL
OFFICE OF THE PUBLIC DEFENDER
633 17TH STREET
SUITE 1000
DENVER, CO 80202
SHIRA.KIEVAL@FD.ORG

